Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives

For Release on Delivery
Expected at
2:00 p.m. EDT
                          Challenges Facing the
Wednesday
October 17, 2007
                          Implementation of FAA’s
                          Automatic Dependent
CC-2007-100



                          Surveillance – Broadcast
                          Program
                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify on the Federal Aviation Administration’s
(FAA) efforts to develop and deploy a new satellite-based technology called
Automatic Dependent Surveillance-Broadcast (ADS-B). At the request of the
Chairman, we are examining the risks to this important effort and the strengths and
weaknesses of FAA’s contracting approach.

As you know, FAA recently awarded a contract valued at $1.8 billion to ITT for the
development, implementation, and operation of the ADS-B ground infrastructure.
ADS-B is an important part of the FAA’s plans for the Next Generation Air Traffic
Management System (NextGen), but it must be considered along with other planned
technologies and improvements. New routes, data link communications for
controllers and pilots, new automation systems, and new procedures are also required
to handle the expected growth in air traffic.

We recognize that ADS-B has potential to enhance capacity, improve safety, and
fundamentally change the way air traffic is managed. However, a full disclosure of
costs, expected benefits, and risks is needed. This is a complex, long-term effort that
requires significant investments from both the Government and airspace users. Given
FAA’s history with developing new technologies and its approach for ADS-B, we
believe that an extraordinary level of oversight will be required.

Today, I will discuss three major points.

    • First, realistic expectations need to be set for what benefits ADS-B will deliver in
      terms of capacity and delay reduction. ADS-B will not provide near-term capacity
      benefits or relief from record-level delays at the Nation’s most congested airports.
      FAA’s plans call for the ADS-B ground infrastructure to be in place by 2013, and
      airspace users are not expected to be equipped with new avionics until 2020. FAA
      and industry groups do expect to see tangible benefits in the Gulf of Mexico in
      2009 from using ADS-B where radar coverage is not available.

      It is important to note that FAA intends to mandate “ADS-B Out” usage 1 (the
      broadcast of position information from aircraft to ground systems), but the
      majority of benefits from the new satellite-based technology rely on “ADS-B In”
      and the display of this information in the cockpit. FAA is developing several air-
      to-air capabilities with United Parcel Service (UPS) that show considerable
      promise for enhancing pilot situational awareness. However, costs and other
      requirements for ADS-B In and cockpit displays, which could shift more
      responsibility to the pilot, are not clear at this time. FAA needs to provide
1
    FAA’s Notice of Proposed Rule Making mandates the use of ADS-B for specific classes of airspace.
    Generally speaking, airspace users under air traffic control at high-altitude and high-density airspace must
    equip. According to FAA, military and other Government aircraft will have to equip with ADS-B.


                                                                                                              1
 Congress and the aviation community with a much clearer path for moving
 forward with ADS-B and realizing the potential capacity enhancing benefits from
 this satellite-based technology.

• Second, ADS-B has demonstrated important benefits in Alaska where radar
  coverage is limited, but its implementation in the continental United States, which
  involves supplementing and ultimately replacing radar, is a complex undertaking.
  Before FAA even considers the more advanced capabilities, (such as reducing
  distances between aircraft in congested airspace), ADS-B must demonstrate the
  same level of service that radar now provides.

 Our work shows that the widespread introduction of ADS-B faces a myriad of
 risks. These risks include user acceptance, frequency congestion concerns about
 the broadcast link for large transport aircraft, development and approval of air
 traffic procedures that can capitalize on ADS-B, and necessary adjustments to
 existing controller displays and related automation systems. All of these risks
 could materially affect the cost, schedule, and expected benefits of ADS-B.

• Finally, FAA has decided to rely on a service contract approach for ADS-B. This
  means that the Government will not own the ADS-B ground infrastructure but will
  pay for broadcast services. FAA will, however, own the data and certify the ADS-
  B service. This approach is expected to reduce cost and speed the introduction of
  new technology.

 We found that FAA intends to use several controls to help manage the contract,
 including techniques for measuring cost and schedule changes, performance
 metrics, and cost sharing arrangements for cost overruns. However, these controls
 are not fully in place; once they are established, FAA must execute them properly
 and hold the contractor accountable.

 An important oversight mechanism is the establishment of a performance control
 board for ADS-B. This board, comprised of FAA and contractor personnel, is
 expected to monitor ADS-B performance, review changes to the system, and
 mutually resolve disagreements. This board is not yet place, and its charter is not
 finalized. The comfort level with FAA’s contracting approach will increase only
 when this board is firmly established and roles and responsibilities are clearly
 defined.

 Our work shows that key areas for FAA oversight include managing requirements
 and having the right in-house expertise and skill mix for effective management
 and oversight. This will be particularly important since FAA will not own the
 ADS-B hardware, software, or infrastructure. We are concerned that FAA could
 find itself in a situation where it knows very little about the system that is expected



                                                                                      2
   to be the foundation of NextGen. FAA must take steps to ensure it effectively
   addresses this risk.

I will now discuss these issues in further detail.

ADS-B Is a Key Enabling Technology for NextGen, but Realistic
Expectations Need To Be Set for When Benefits That Enhance
Capacity and Reduce Delays Can Be Realized
Nationwide ADS-B implementation is a challenge that will span well over a decade
and require airspace users to equip with new avionics. FAA does not expect the
ground infrastructure to be completed until 2013 or airspace users to be fully
equipped with the ability to broadcast their position (ADS-B Out) until 2020. There
are differences in what large commercial aircraft and general aviation aircraft
operators are expected to purchase and install. A clear transition path for moving
forward with ADS-B with well-defined costs and benefits does not yet exist.

FAA’s Costs, Schedules, and Plans for Implementing ADS-B Nationwide
Currently, FAA estimates that ADS-B will cost the Agency about $1.6 billion in
capital costs for initial segments of ADS-B implementation through 2014 (segments 1
and 2), which include the completion of a nationwide ground system for receiving and
broadcasting ADS-B signals. The total life-cycle cost of the ADS-B effort is
estimated to be about $4.3 billion; this includes $2.2 billion in capital costs that have
not yet been formally “baselined.” The following figure illustrates FAA’s annual
spending plans for ADS-B for the next 5 years.

                          Figure. ADS-B Spending Plan FY 2008
                                      to FY 2012
                                             (Dollars in Millions)
       350
                                   301.3
       300                                                                   284.2
       250
                                                     198.2
       200                                                           175.2
       150
       100          85
        50
         0
                   2008             2009             2010            2011    2012
     Source: FAA Capital Investment Plan, dated September 18, 2007

FAA is pursuing ADS-B through a phased (or segmented) approach. Between now
and 2011 (segment 1), FAA plans to complete ADS-B implementation in Alaska,

                                                                                       3
provide services in the Gulf of Mexico, initiate broadcast service on the East Coast
(for general aviation users), and continue efforts to develop air-to-air applications
with UPS at Louisville International Airport. FAA chose these sites because of prior
ADS-B development efforts, existing ADS-B infrastructure, and the need to provide
surveillance coverage where radar coverage does not exist.

Between 2009 and 2014 (segment 2), FAA plans to issue a final rule for mandating
ADS-B usage by 2020, complete the ground infrastructure, and integrate ADS-B with
existing FAA automation systems—all critical steps. Further refinement of additional
air-to-air applications (for ADS-B-In) and the decommissioning of radars are planned
for the 2015 to 2025 timeframe (segments 3 and 4). Plans for ADS-B- In are still
being determined. Table 1 shows the key milestones for ADS-B implementation.

                               Table 1. ADS-B Key Milestones

                                                                            Projected Completion
                                    Milestone
                                                                                    Date
        Notice of Proposed Rule Making (NPRM) Issued                            October 2007
        Critical Design Review for the ground system                            February 2008
        Key Site “Initial Operating Capability” of Broadcast
                                                                                  August 2008
        Services at Fort Myers
        Final Rule Published “ADS-B-Out”                                        November 2009
        “Initial Operating Capability” in the Gulf of Mexico for
                                                                                 December 2009
        Surveillance and Broadcast Services
        “Initial Operating Capability” at Philadelphia for
                                                                                 February 2010
        Surveillance and Broadcast Services
        Complete ADS-B NAS-Wide Infrastructure Deployment                            FY 2013
        Source: ATMAC ADS-B Work Group Status Briefing, September 5, 2007

FAA will implement ADS-B in the United States via two separate broadcast links.
FAA selected these two links in 2002 to provide a targeted level of service for
specific user groups.

    • FAA expects that air carrier and commuter fleets will equip with the “1090” MHz
      extended squitter (or 1090-ES). Currently, the 1090 MHz frequency band is
      already allocated for use by secondary surveillance radar and the Traffic Collision
      and Avoidance System (TCAS). 2 Consequently, this frequency is somewhat
      congested.



2
    The Traffic Alert and Collision Avoidance System (TCAS) is an airborne system developed by the FAA that
    operates independently from the ground-based Air Traffic Control system. TCAS was designed to increase
    cockpit awareness of proximate aircraft and serve as a “last line of defense” for the prevention of mid-air
    collisions.


                                                                                                             4
 • FAA expects that air taxi and general aviation fleets will most likely equip with
   the Universal Access Transceiver (UAT) developed by the Mitre Corporation,
   which operates in the 978 MHz frequency band. The UAT technology was used
   successfully for trials and demonstrations in Alaska during SafeFlight 21.
   Because of available bandwidth, it can accommodate graphic weather information
   and other data. Large commercial aircraft, which rely on weather radar and
   information from airline dispatchers, are not expected to equip with UAT
   technology.

Costs for Airspace Users To Equip With ADS-B Need Further Refinement
We have seen a wide variety of costs for airspace users to equip with ADS-B
avionics, ranging from $1.3 billion to $7.5 billion. These generally exclude the costs
for taking transport aircraft out of service to install new technology. FAA’s estimates
reflect considerable uncertainty and require further refinement.

Several factors affect the cost of equipping with ADS-B, such as the age and type of
aircraft as well as what broadcast link different airspace users decide to purchase and
the services they expect to obtain. Another factor is the position source of ADS-B,
which may or may not require a new Global Positioning System (GPS) receiver or an
upgrade for an aircraft’s flight management system.

Another reason for cost uncertainty is that some large commercial aircraft are already
equipped with ADS-B avionics (e.g., 1090 ES alternative) but many may not be
compliant with the proposed rule for ADS-B, which is expected to be based on
updated standards. FAA stated that all new aircraft being produced by Airbus and
Boeing will be delivered with the capability to broadcast ADS-B information without
modification.

While FAA will mandate usage of ADS-B Out for most classes of controlled airspace,
it expects that airspace users will voluntarily equip with additional capabilities
associated with ADS-B In. This complicates the cost equation even further. The
following illustrates the range of costs for airspace users that FAA has developed thus
far.

 • Air Transport Aircraft (“1090” MHz extended squitter): Average unit costs
   for ADS-B Out range from $32,000 to $174,000 per aircraft. FAA estimates the
   incremental costs for ADS-B In (depending on display requirements) to range
   from $162,000 to $670,000 per aircraft.

 • General Aviation (UAT technology): Average unit costs for ADS-B Out range
   from $7,600 to $10,900 per aircraft. FAA estimates the average cost for ADS-B
   In and Out to range from $10,444 to $29,700, depending on the aircraft type.



                                                                                     5
Because standards for ADS-B In are not mature, it is difficult to reliably estimate
costs at this time. There is also the risk of continually changing standards during
ADS-B development, and users may be wary of equipping too soon. FAA needs to
continue to work with aviation stakeholders to refine ADS-B costs so that all airspace
users can invest in necessary technologies with some level of comfort.

FAA Needs To Clarify ADS-B Benefits for Congress and Airspace Users
Airspace users have important questions about ADS-B benefits and the timeframe for
when benefits can be realized. This issue will determine how quickly airspace users
will install new avionics and will drive how long the transition to ADS-B will
ultimately take. FAA needs to provide Congress and aviation stakeholders with a
much clearer understanding of expected benefits and the steps needed to obtain them.

Experience thus far indicates that ADS-B is beneficial where radar coverage is limited
or non-existent, such as in Alaska. In this environment, ADS-B has enhanced safety
and proven valuable in search and rescue missions. The challenge is quantifying the
benefits from ADS-B in the continental United States where radar coverage exists and
exploiting new procedures that can enhance capacity and reduce delays.

In the near term, ADS-B will not provide capacity benefits or relief from record level
delays at the Nation’s most congested airports. The first stage of ADS-B
implementation will be limited to specific geographic locations, including Alaska, the
Gulf of Mexico, and select airports on the East Coast. FAA and the industry expect to
see tangible benefits from ADS-B in the Gulf of Mexico from reduced separation
between aircraft (from 50 miles to 5 miles) in airspace where radar coverage is
limited. There are important distinctions between ADS-B Out and ADS-B In
technologies and their expected benefits.

ADS-B Out: This refers to the broadcast of ADS-B information from the aircraft to
FAA ground systems. The principal benefits focus on providing a more accurate
source of an aircraft’s position (than radar) for controllers to manage traffic. FAA
also expects to see significant savings from decommissioning large numbers of
secondary surveillance radars around the year 2020. 3 However, FAA cannot
decommission radars until all aircraft are equipped to broadcast their position.

ADS-B Out is expected to provide “radar-like” separation services—not a reduction
in existing separation standards. Coupled with new automation, FAA expects ADS-B
to allow for more efficient merging and spacing of traffic and far better detection of
conflicts between aircraft. The productivity enhancements for controllers have not yet
3
    Both FAA and the Department of Defense operate radars in the National Airspace System. FAA does not
    plan to decommission primary radars (which require no equipment on an aircraft). FAA’s plans focus on
    decommissioning some secondary surveillance radars. This system transmits pulses that elicit a response
    from transponders on the aircraft. The information is then portrayed with a data tag on the controller’s
    display.


                                                                                                          6
been quantified. FAA also expects to realize more efficient management of the
airport surface by linking ADS-B with existing runway safety technologies.
However, these benefits depend on ADS-B performance being equal to or better than
radar. They will also depend on procedure development and significant changes to
existing automation systems.

ADS-B In: This refers to the receipt and display of traffic information in the cockpit.
This is where the most benefits from ADS-B are expected, particularly with respect to
enhancing capacity at congested airports. However, it also requires a cockpit display.
FAA will not mandate usage of ADS-In or cockpit display but hopes that airspace
users will voluntarily equip based on benefits.

At the most basic level, ADS-B In allows pilots to “see and avoid” other aircraft
operating in their proximity. UPS has been instrumental in pioneering ADS-B and the
first generation of cockpit display applications for enhanced “see and avoid”
capabilities, and it will continue to provide testing for advanced air-to-air and air-to
ground applications over the next several years.

When ADS-B information is displayed in the cockpit, it greatly increases pilot
situational awareness in all phases of flight. A cockpit display of information would
also allow pilots to make better use of runways in bad weather. This could also
improve safety of busy runways and taxiways by providing a “second set of eyes” in
the cockpit. FAA needs to establish how these improvements for enhanced situational
awareness can be implemented, what level of certification for displays will be
required, and which locations would receive the most benefits.

Promising but long-term applications for aircraft self-separation and fundamentally
changing current air traffic concepts, roles, responsibilities, and procedures depend on
users having ADS-B In and a robust, certified cockpit display. The technical
requirements for ADS-B In that would allow for self-separation (and a reduction in
separation) have not been finalized. Further, air and ground systems will have to be
certified to exacting standards. The full potential of ADS-B In will also require
consideration of human factors, such as new procedures for pilots and changes to
procedures both in the cockpit and on the ground.

Nationwide ADS-B Implementation Faces Several Risks That Must
Be Mitigated
ADS-B implementation in the continental United States is a complex undertaking that
will require coordinated investments between FAA and the industry over the next
decade. Our review identified five major risks that will have a direct bearing on the
cost, schedule, and expected benefits of ADS-B: (1) gaining stakeholder acceptance
and aircraft equipage, (2) addressing broadcast frequency congestion concerns, (3)
integrating ADS-B with existing systems, (4) implementing procedures for separating


                                                                                      7
aircraft based on ADS-B, and (5) assessing potential security vulnerabilities in
managing air traffic with ADS-B.

Gaining Stakeholder Acceptance and Aircraft Equipage
Although most stakeholders agree that ADS-B is part of the future, FAA is concerned
that the costs associated with equipage may generate opposition from stakeholders.
FAA believes that this is the biggest risk to ADS-B implementation.

Because all airspace users must equip with ADS-B to get benefits and probably would
not voluntarily equip, FAA intends to rely on a rulemaking initiative to mandate
ADS-B equipage. FAA published the Notice of Proposed Rule Making (NPRM)
earlier this month and plans to issue a final rule in the 2009 to 2010 timeframe. As
noted previously, FAA intends to mandate usage of ADS-B Out, not ADS-B In.

There is justifiable skepticism in the aviation community about advancing
revolutionary technologies and equipping with new avionics because of past
experiences. FAA cancelled a Microwave Landing System in the 1990s because of
industry concerns and opposition. More recently, FAA cancelled the Controller-Pilot
Data Link Communications Program in 2003 because of uncertain benefits, technical
problems, and cost growth issues. Stakeholders are concerned that ADS-B could
become another situation where some industry members equip and FAA never
follows through with the requisite ground infrastructure or mandate.

In response to the industry’s desire for more input, FAA established an Aviation
Rulemaking Committee (ARC) in July 2007.              The ARC is comprised of
20 government and industry representatives and is chartered to review the NPRM and
make recommendations to FAA for structuring an ADS-B mandate. After the release
of the NPRM, this group is expected to make specific recommendations about
proposed ADS-B requirements.

Because ADS-B benefits are not clearly defined for airspace users, many in the
industry and FAA believe that incentives will be required to help spur aircraft
equipage. Industry groups have suggested that these incentives could include an
investment tax credit, an adjustment to current excise taxes for ADS-B-equipped
aircraft, or research and development tax credits specifically for avionics
manufacturers. Whether or not incentives should be used is a policy decision for
Congress, but we think full consideration of their timing and impact is needed.

Addressing Frequency Congestion Concerns for the Broadcast of ADS-B for
Transport Aircraft
There is concern that the frequency planned for large commercial carriers (1090 MHz
spectrum) will become overcrowded with the addition of ADS-B signal traffic.
Currently, the same frequency is used by FAA and airspace users for other important


                                                                                  8
systems, which include ground-based secondary radar, runway incursion systems, and
aircraft collision avoidance systems. This is one reason that FAA decided to rely on
two separate frequencies for ADS-B.

As FAA points out, without proper control of the 1090 MHz spectrum, the
performance and benefits of ADS-B will be diminished. Conversely, the broadcast of
ADS-B in this frequency range could have unintended consequences and affect the
effectiveness of existing systems. FAA plans to research the impact of and potential
solutions for frequency congestion for ADS-B and other users of the 1090 MHz
spectrum in congested airspace.

Integrating ADS-B With FAA’s Existing Automation Systems
Nationwide ADS-B implementation will require FAA to significantly modify existing
automation systems (e.g., controller displays, software, and related computer
equipment) in both the terminal and en route environments. It will also require
adjustment to the format of flight plans so that ADS-B aircraft are properly identified.

Currently, most automation systems do not process and display ADS-B information.
If existing controller displays and related equipment are not modified, air traffic
surveillance applications for ADS-B cannot be used.

All of FAA’s automation platforms that controllers rely on for separating aircraft will
require software modification to accommodate ADS-B. This includes the $2.1 billion
En Route Automation Modernization effort that is modernizing the displays, hardware
and software that controllers use to manage high-altitude traffic. It also includes
modifying the Standard Terminal Automation Replacement System and Common
Automated Radar Terminal System, which controllers use to manage traffic in the
vicinity of airports.

An important step to realize the benefits of ADS-B is the development and
implementation of “fusion.” Fusion in this context is defined as taking all
surveillance data available for an aircraft and using the best data or combination of
data to determine aircraft position and intent. Industry groups have asked FAA to
accelerate its work on fusion. FAA needs to determine requirements for fusion and
the best approach for implementing it.

Developing, Certifying, and Implementing Procedures for Separating Aircraft
Based on ADS-B Information
For ADS-B to successfully transition into the National Airspace System, FAA must
be able to confirm that it can provide a level of service with ADS-B that is at least as
good as, if not better than, the level it now provides using radar to safely separate
aircraft.



                                                                                      9
It is important to note that FAA is focusing on providing radar-like services from
ADS-B in the near term, not reducing existing separation standards. To meet existing
criteria for separating aircraft, ADS-B must provide services that allow 5 nautical
miles in the en route environment; 3 nautical miles in the terminal environment;
2.5 nautical miles on approach; and 1.5 nautical miles on staggered, dependent
approaches. The most stringent criteria focus on 4,300-foot spacing on parallel,
independent approaches.

Because of concerns about whether or not ADS-B could provide equivalent service,
FAA sponsored research and modeling that examined the use of radar and ADS-B
targets for separating air traffic. This research was performed by the Massachusetts
Institute of Technology/Lincoln Labs, the Johns Hopkins University/Applied Physics
Laboratory, and the Mitre Corporation. The studies show that ADS-B should be able
to provide surveillance that is at least as good as radar if not better. However,
automation systems will need to compensate for differences in ADS-B and radar
update and error rates. This issue underscores the need for fusion.

However, ADS-B performance must be demonstrated and tested in a real-world
environment. Also, FAA must validate and certify ADS-B procedures. Full
achievement of ADS-B potential will also depend on enhancements to existing
automation platforms. However, it will be difficult to ask users to equip with new
avionics until FAA has systems and procedures in place that provide at least the same
level of service they receive through radar.

Assessing the Potential Security Vulnerabilities of Using ADS-B for Managing
Air Traffic
Because ADS-B makes the position of aircraft in flight generally available, a security
assessment is needed to determine risks and appropriate countermeasures. There are
several specific concerns noted in FAA planning documents, including unauthorized
use of ADS-B information for introducing false targets into the system. We believe a
full discussion of ADS-B security and potential vulnerabilities is inappropriate in an
open forum.

FAA needs to continue to work with the intelligence community and the Departments
of Defense and Homeland Security to ensure that concerns about ADS-B security are
adequately addressed. Failure to address these concerns early in the program could
result in cost increases and schedule delays to the ADS-B effort. Given that ADS-B is
expected to be the foundation of NextGen, it is better to have a full understanding of
security risks sooner rather than later.




                                                                                   10
FAA’s Contracting Approach for ADS-B Requires Robust and
Extraordinary Oversight
Over the years, we have emphasized the importance of strong FAA oversight of
contracts to protect the Government’s interests. While FAA intends to use several
important controls to manage the ADS-B contract; including cost, schedule, and
performance metrics; they need to be fully implemented and should hold the
contractor accountable. A key mechanism for oversight—a performance review
board—is not yet in place. We identified several areas that are essential for
governance and oversight of the ADS-B contract.

FAA Relies on a Service-Contract Approach for the Development and
Implementation of ADS-B
FAA is relying on a service contract, which means it will not own the ADS-B ground
infrastructure. FAA will own the data transmitted between aircraft and the ground but
not the hardware, software, or ground stations. In a more traditional acquisition, FAA
would specify the functional design and hardware deliverables and would ultimately
own the equipment.

FAA believes there are important reasons for relying on a service-based acquisition
for ADS-B. First, FAA expects it to be less expensive because the Agency will not
have to own and maintain ground systems. FAA’s data suggests that a service
approach for ADS-B would cost $800 million less than a traditional acquisition
approach. We have not validated these estimates. Table 2 compares the cost for
relying on traditional acquisition versus a service contract for ADS-B.

                Table 2. Cost Differential From FAA Ownership
                            and Service Approach
                                               ($ in Millions)
         Cost                      Traditional                Service Provider        Expected
        Element                   Government-                    Approach            Cost Savings
                                 Owned Approach
 Facilities and
 Equipment Costs             $      1,799.30              $         1,445.20     $        354.10
 In-Service Management
 Costs (Operations &         $      1,946.30              $         1,478.70     $        467.60
 Maintenance)
   Total                     $      3,745.60              $         2,923.90     $        821.70
Source: FAA’s Surveillance and Broadcast Service Program Office, May 2007

Also, FAA states that the service-based approach offers an opportunity for the
Agency to make use of commercially available equipment, land, or services that the
contractor already has in place. Further, FAA states that this approach increases the
likelihood of meeting cost and schedule milestones.



                                                                                                    11
Nevertheless, a service contract is not a “silver bullet” for implementing ADS-B in
the United States. We think the transition to ADS-B will be driven by stable
requirements (for air and ground components), new procedures, and user benefits
(from purchasing new ADS-B avionics) rather than the contracting vehicle.

The ADS-B Contract Structure Includes Both Cost-Plus and Firm-Fixed Price
Elements
The ADS-B contract is a complex vehicle worth $1.8 billion that will span 18 years, if
all options are exercised. The first 3 years of the contract focus on developing the
ADS-B ground infrastructure including 340 ground stations and 4 master control
stations. In reality, the ADS-B contract is a combination of contracting mechanisms,
including a cost-plus incentive fee arrangement for the development of the ground
system, subscription fees for ADS-B broadcast services, and time and materials
arrangements for engineering work. Table 3 breaks out the contract elements with
associated costs.

                       Table 3. Elements of the ADS-B Contract
                   Supplies /Services            Contract Type                     Costs
                 Development and             Cost Plus Incentive Fee     $     207,576,480.00
                 Installation
                 Equipment Charges           Firm Fixed Price            $      30,952,941.00
                 Engineering Services        Time and Material           $      4, 500, 000.00
                 Subtotal                                                $     243,029, 421.00

                 Options                     Subscription Charges        $ 1,502,634,179.00
                 (Segments 1 and 2)
                 Program Management                                      $     84, 823, 266.00
                 for Segment 1 & 2           Firm Fixed Price
                 Engineering Services        Time and Material           $     34,504,404.00
                 Subtotal
                 (FY 2010 – FY 2025)                                     $ 1,621,961,849.00

                   Grand Total                                           $ 1,864,991,270.00
               Source: FAA /Surveillance and Broadcast Services, ADSB Contract, August 2007

FAA’s Contract Has Important Controls, but They Must Be Fully Implemented
and Used To Hold the Contractor Accountable
We found that FAA’s contract for ADS-B has controls that are important for
managing and overseeing a complex acquisition. For example, the contract calls for
the use of Earned Value Management 4 to monitor progress in meeting cost and
schedule targets. According to the contractor, it does not currently have a certified

4
    Earned Value Management System (EVMS) is a management tool that provides for integrating technical, cost
    and schedule information about contract performance. This information enables the FAA to proactively
    manage contracts.


                                                                                                         12
Earned Value Management System in place to provide reliable data, but efforts are
underway to certify the system. Also, FAA is planning to use performance metrics,
such as “service availability” to assess how well the service performs with respect to
performance standards.

In the event of cost increases with the development and installation of ground
systems, the contract calls for a cost sharing; this means that FAA will pay 85 percent
of cost overruns and the contractor will pay for 15 percent. However, most of the risk
with the development of a ground system (under a cost-plus arrangement) lies with
the Government.

Because the contract was signed in August and work has just begun, it is too early to
evaluate the effectiveness of these controls. FAA needs to fully implement them and
hold the contractor accountable.

During congressional hearings this past spring, valid concerns were expressed about
continuity of service; specifically, if there should be a change of contractor and thus a
change in ownership of ADS-B infrastructure. In response, FAA placed two clauses
in the contract that seek to address these issues.

Specifically, in the event of bankruptcy, acquisition by another entity, or events that
jeopardize service, the contractor is directed to establish a succession plan, where at
least one member of the team (other than the prime contractor) is deemed to have the
necessary resources to perform the contract. Also, the contract gives the Government
the right to require continued contract performance for up to 2 years to facilitate
transition to an alternative service provider.

A succession plan is particularly important given the contract’s potential span of
18 years and the unknowns about how quickly airspace users will equip. In a
memorandum of agreement, ITT designated AT&T as the successor for the ADS-B
ground system. We have not yet reviewed the details of this plan or how it would
work in practice. Therefore, we are not in a position to discuss the plan’s strengths or
weaknesses. FAA should alert Congress immediately of significant changes in the
financial status of the contractor and the actions it is taking to prevent disruptions of
service.

Performance Oversight Board for ADS-B Services Is Not Yet in Place
An important part of FAA’s governance of the ground infrastructure is the
establishment of a performance control board, which will be comprised of Agency
and contractor personnel. This board is expected to monitor the ADS-B system,
compare contractor performance against metrics, review changes to the system,
mutually resolve disagreements, and resolve programmatic issues.




                                                                                      13
However, the board has not been established, and its charter has not been finalized.
According to FAA officials, there is some discussion about expanding membership to
include aviation stakeholders. The comfort level with FAA’s contracting approach
will increase only when the board is fully established, membership is finalized, and
roles and responsibilities are clearly defined. There should be no substitute for strong
Government oversight.

An Extraordinary Level of Oversight of ADS-B Development and
Implementation Will Be Required
Over the years, we have documented numerous problems with major FAA
acquisitions that led to cost increases, schedule delays, diminished cost savings, or
unmet expectations. Problems are directly traceable to poor contract oversight,
among other things. The need for strong oversight for ADS-B is amplified by the fact
that FAA has never before relied on service contract for introducing a revolutionary
technology into the National Airspace System.

Recent experiences with the FAA Telecommunications Infrastructure (FTI) program
and efforts to transition flight service stations operations to Lockheed Martin,
underscore the importance of strong Federal oversight. An important lesson learned
is the need for strong oversight and greater insight into contractor efforts and problem
resolution. With the FTI and flight service stations efforts, the objective was to
replace a clearly defined service that was already in place. ADS-B, on the other hand,
is the development and installation of services that will become the foundation of
NextGen.

Because successful ADS-B implementation requires air and ground elements—owned
and operated by different entities—to perform at a high level, a different model of
FAA oversight for modernization efforts will be required. The Air Traffic
Organization must change its role from providing a service to providing direct,
sustained oversight. We believe that several specific areas will require oversight.

The nationwide implementation of ADS-B ground infrastructure is a significant
undertaking. According to ITT, the schedule is aggressive but achievable.
Currently, FAA and ITT estimate that approximately 800 ground stations (with ADS-
B software radios) will be required to provide service to over 320 segments of
airspace, or “service volumes.” For example, each major airport constitutes a specific
service volume; FAA estimates that about 60 service volumes will be required to
provide surveillance for the Nation’s 20 facilities that manage high-altitude traffic.

Requirements for ADS-B are still evolving, and there could be considerable
changes that have significant cost and schedule implications. Costs associated
with changing requirements will be the responsibility of the Government, not the
contractor. Because FAA will rely on two links, it must re-broadcast the ADS-B


                                                                                     14
information to all aircraft to get the benefits from ADS-B In. It is important to ensure
that different aircraft (equipped with different broadcast links) can “see” each other.
This capability is referred to as Automatic Dependent Surveillance-Rebroadcast, or
ADS-R. The timely delivery of ADS-R signals will be necessary to enable advanced
applications. FAA officials told us that some development will be required and that
some changes to requirements should be expected.

As FAA points out, much work remains to refine requirements for ADS-B In.
Because ADS-B relies on air and ground elements, changes can be expected to on-
board avionics, FAA automation systems, and ground systems. At this stage, it would
be unrealistic to assume that there will be no changes to ADS-B requirements.

As ADS-B usage evolves and pilots begin to rely on the system, complex safety and
certification issues will have to be addressed that could have profound cost
implications. A case in point is FAA’s experience with the Wide Area Augmentation
System, a satellite-based navigation system. We note that FAA’s problems with this
multibillion-dollar program were directly traceable to difficulties in certifying the
satellite-based system.

FAA will need considerable in-house expertise to effectively monitor contractor
efforts and conduct effective oversight of system performance over the long term.
FAA must ensure that all 320 planned service volumes are working as intended on a
regular basis. It will be difficult for the Agency to build and sustain sufficient in-
house knowledge of how the system actually works and how problems are solved
since it will neither own the hardware, ground stations, and related software nor be
responsible for the operation and maintenance of the ground system. Further, much
of the ADS-B infrastructure will be embedded in commercial equipment and
networks. The key personnel skills that are needed for effective ADS-B oversight
include telecommunications, signal processing, and knowledge of the GPS
constellation. We are concerned that FAA could find itself in the unenviable position
of knowing very little about a system that is expected to be the foundation of
NextGen. FAA needs to determine what skill mix will be required for effective
oversight.

FAA will allow ITT to sell “value-added services” to various aviation
stakeholders. In essence, ITT will have a monopoly over providing ADS-B services
for the next 18 years. The contractor must seek approval from FAA before releasing
surveillance data, and the Agency is expected to provide criteria for filtering the data
as necessary. Although these services are not yet well-defined, they could include
enhanced weather products for specific regions (like the Gulf of Mexico) and
subscription sales of traffic information. FAA officials commented that airports may
be interested in purchasing information on aircraft position and location for better
understanding of facility utilization and better surface management. FAA believes
that these services will help reduce overall costs and accelerate avionics equipage.

                                                                                     15
Nevertheless, because ADS-B can provide highly accurate information on aircraft,
FAA will have to exercise strong oversight of which data are being sold and what
they are being used for.

Mr. Chairman, this concludes my statement. I would be happy to answer any
questions you or other Members of the Subcommittee might have.




                                                                             16
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
 Challenges Facing the Implementation of FAA’s Automatic Dependent Surveillance-
                           Broadcast Program (ADS-B)

Testimony Before the Committee on Transportation and Infrastructure, Subcommittee
                                   on Aviation

                               508 Compliant Presentation

Figure. ADS-B Spending Plan, Fiscal Year 2008 to Fiscal Year 2012

The figure data illustrates FAA’s annual spending plans for ADS-B for the next 5 years.

   Fiscal Year        Dollar Amount
 Fiscal Year 2008           $85 million
 Fiscal Year 2009       $301.3 million
 Fiscal Year 2010       $198.2 million
 Fiscal Year 2011       $175.2 million
 Fiscal Year 2012       $284.2 million
Source: FAA Capital Investment Plan, dated September 18, 2007

Table 1. ADS-B Key Milestones

                        Milestone                          Projected Completion Date
Notice of Proposed Rule Making Issued                     To be completed October 2007
Critical Design Review for the Ground System              To be completed February 2008
Key Site for “Initial Operating Capability” of Broadcast
                                                           To be completed August 2008
Services at Fort Myers
Final Rule Published on “ADS-B-Out”                      To be completed November 2009
“Initial Operating Capability” in the Gulf of Mexico for
                                                         To be completed December 2009
Surveillance and Broadcast Services
“Initial Operating Capability” at Philadelphia for
                                                          To be completed February 2010
Surveillance and Broadcast Services
Complete ADS-B National Airspace System-Wide
                                                         To be completed fiscal year 2013
Infrastructure Deployment
Source: ATMAC ADS-B Work Group Status Briefing, September 5, 2007
Table 2. Cost Differential From FAA Ownership and Service Approach

Table 2 data compares the cost for relying on traditional acquisition versus a service contract
for ADS-B.

 • With the traditional government-owned approach, Facilities and Equipment Costs would
   be $1,799,300. With the service provider approach, they would be $1,445,200. Expected
   cost savings would equal $354,100.

 • With the traditional government-owned approach, In-Service Management Costs
   (Operations & Maintenance) would be $1,946,300. With the service provider approach,
   they would be $1,478,700. Expected cost savings would equal $467,600.

 • Totals: With the traditional government-owned approach, the total for both Facilities and
   Equipment Costs and In-Service Management Costs would be $3,745,600. With the
   service provider approach, the total would be $2,923,900. Total expected cost savings
   would equal $821,700.

 Source: FAA’s Surveillance and Broadcast Service Program Office, May 2007

Table 3. Elements of the ADS-B Contract

The ADS-B contract is a combination of contracting mechanisms, including a cost-plus
incentive fee arrangement for the development of the ground system, subscription fees for
ADS-B broadcast services, and time and materials arrangements for engineering work. Table
3 data breaks out the contract elements with associated costs.

 1. Development and Installation Supplies and/or Services: The contract type for these
    services is a cost plus incentive fee contract. The cost for these services is
    $207,576,480.00.

 2. Equipment Charges Supplies and/or Services: The contract type for these services is a
    firm fixed price contract. The cost for these services is $30,952,941.00.

 3. Engineering Services: The contract type for these services is a time and materials
    contract. The cost for these services is $4,500, 000.00.

The cost subtotal for these three items is $243,029, 421.00.

 1. Options Supplies and/Services (for Segments 1 and 2): The contract type for these
    services is a subscription charges contract.    The cost for these services is
    $1,502,634,179.00.

 2. Program Management Supplies and Services (for Segments 1 and 2): The contract type
    for these services is a firm fixed price contract. The cost for these services is
    $84,823,266.00.
 3. Engineering Services (for Segments 1 and 2): The contract type for these services is a
    time and materials contract. The cost for these services is $34,504,404.00.

The cost subtotal for these three items for the period of fiscal year 2010 through fiscal year
2025 is $1,621,961,849.00.

The grand total for all of these ADS-B contract elements is $1,864,991,270.00.
Source: FAA /Surveillance and Broadcast Services, ADSB Contract, August 2007
